Page 2 – Kerry Weems


We recommend that the Hospital:

   •   submit a revised FY 2005 Medicare cost report to the fiscal intermediary to correct the
       wage data overstatements totaling $11,762,404 and 252,882 hours and

   •   strengthen review and reconciliation procedures to ensure that the wage data reported in
       future Medicare cost reports are accurate, supportable, and in compliance with Medicare
       requirements.

In its written comments on our draft report, the Hospital provided information on actions taken to
implement our recommendations.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact George M. Reeb, Assistant Inspector General for the Centers for
Medicare & Medicaid Audits, at (410) 786-7104 or through e-mail at George.Reeb@oig.hhs.gov
or Lori A. Ahlstrand, Regional Inspector General for Audit Services, Region IX, at
(415) 437-8360 or through e-mail at Lori.Ahlstrand@oig.hhs.gov. Please refer to report number
A-09-07-00083.


Attachment
Page 2 – Mr. Daniel P. Garcia


Direct Reply to HHS Action Official:

Ms. Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Organizations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, Missouri 64106
                                   EXECUTIVE SUMMARY

BACKGROUND

Under the inpatient prospective payment system for acute-care hospitals, Medicare Part A pays
hospital costs at predetermined, diagnosis-related rates for patient discharges. The Centers for
Medicare & Medicaid Services (CMS) adjusts prospective payments by the wage index
applicable to the area in which each hospital is located. CMS calculates a wage index for each
metropolitan area, known as a core-based statistical area (CBSA), as well as a statewide rural
wage index for each State. These calculations use hospital wage data (which include wages,
salaries, and related hours) collected 4 years earlier to allow time for the collection of complete
cost report data from all inpatient prospective payment system hospitals and for reviews of
hospital wage data by CMS’s fiscal intermediaries. For example, CMS will base the fiscal year
(FY) 2009 wage indexes on wage data collected from hospitals’ Medicare cost reports for their
FYs that began during Federal FY 2005 (October 1, 2004, through September 30, 2005).

CMS bases each wage index on the average hourly wage rate of the applicable hospitals divided
by the national average rate. A hospital’s wage rate is the quotient of dividing total dollars
(numerator) by total hours (denominator). Arriving at the final numerator and denominator in
this rate computation involves a series of calculations.

CMS is required to update wage indexes annually in a manner that ensures that aggregate
payments to hospitals are not affected by changes in the indexes. CMS is also required to update
payments to hospitals by an applicable percentage based on the market basket index, which
measures the inflationary increases in hospital costs. Hospitals must accurately report wage data
for CMS to determine the equitable distribution of payments and ensure the appropriate level of
funding to cover hospital costs.

Kaiser Foundation Hospital–Vallejo (the Hospital) is a 287-bed hospital in Vallejo, California.
The Hospital is one of four hospitals in a California CBSA. The Hospital reported wage data of
$144 million and 2.9 million hours in its FY 2005 Medicare cost report, which resulted in an
average hourly wage rate of $49.75.

OBJECTIVE

Our objective was to determine whether the Hospital complied with Medicare requirements for
reporting wage data in its FY 2005 Medicare cost report.

SUMMARY OF FINDINGS

The Hospital did not fully comply with Medicare requirements for reporting wage data in its
FY 2005 Medicare cost report. Specifically, the Hospital reported the following inaccurate wage
data, which affected the numerator and/or denominator of its wage rate calculation:

   •   overstated home office costs totaling $5,441,288 and 57,408 hours,
   •   overstated contract labor costs totaling $5,213,995 and 28,319 hours,


                                                  i
   •   overstated pension costs totaling $986,909, and
   •   overstated salary costs totaling $120,212 and 167,155 hours.

These errors occurred because the Hospital did not sufficiently review and reconcile its reported
wage data to supporting documentation to ensure that the data were accurate, supportable, and in
compliance with Medicare requirements. As a result, the Hospital overstated its wage data by
$11,762,404 (numerator) and 252,882 hours (denominator) for the FY 2005 Medicare cost report
period. Our correction of the Hospital’s errors increased the average hourly wage rate
approximately 1 percent from $49.75 to $50.17. If the Hospital does not revise the wage data in
its cost report, the FY 2009 wage index for the Hospital’s CBSA will be understated, which will
result in underpayments to all of the hospitals that use this wage index.

RECOMMENDATIONS

We recommend that the Hospital:

   •   submit a revised FY 2005 Medicare cost report to the fiscal intermediary to correct the
       wage data overstatements totaling $11,762,404 and 252,882 hours and

   •   strengthen review and reconciliation procedures to ensure that the wage data reported in
       future Medicare cost reports are accurate, supportable, and in compliance with Medicare
       requirements.


KAISER FOUNDATION HOSPITAL–VALLEJO COMMENTS

In its written comments on our draft report, the Hospital provided information on actions taken to
implement our recommendations. The Hospital’s comments are included in their entirety as
Appendix B.




                                                ii
                                                TABLE OF CONTENTS

                                                                                                                              Page

INTRODUCTION ...............................................................................................................1

          BACKGROUND .......................................................................................................1
              Medicare Inpatient Prospective Payment System..........................................1
              Wage Indexes.................................................................................................1
              Kaiser Foundation Hospital–Vallejo..............................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY .....................................................2
               Objective ........................................................................................................2
               Scope..............................................................................................................2
               Methodology ..................................................................................................2

FINDINGS AND RECOMMENDATIONS ......................................................................3

          ERRORS IN REPORTED WAGE DATA ................................................................3
              Overstated Home Office Costs and Hours ....................................................4
              Overstated Contract Labor Costs and Hours .................................................4
              Overstated Pension Costs...............................................................................5
              Overstated Salary Costs and Hours................................................................6

          CAUSES OF WAGE DATA REPORTING ERRORS .............................................6

          OVERSTATED WAGE DATA AND POTENTIAL UNDERPAYMENTS ...........6

          RECOMMENDATIONS...........................................................................................6

          KAISER FOUNDATION HOSPITAL–VALLEJO COMMENTS ..........................6

APPENDIXES

          A – CUMULATIVE EFFECT OF FINDINGS

          B – KAISER FOUNDATION HOSPITAL–VALLEJO COMMENTS




                                                                    iii
                                                   INTRODUCTION

BACKGROUND

Medicare Inpatient Prospective Payment System

Under the inpatient prospective payment system for acute-care hospitals, Medicare Part A pays
hospital costs at predetermined, diagnosis-related rates for patient discharges. In fiscal year
(FY) 2008, the Centers for Medicare & Medicaid Services (CMS) expects Medicare Part A to
pay inpatient hospitals approximately $120.5 billion.

Wage Indexes

The geographic designation of hospitals influences their Medicare payments. Under the
inpatient prospective payment system, CMS adjusts payments through wage indexes to reflect
labor cost variations among localities. 1 CMS uses the Office of Management and Budget
(OMB) metropolitan area designations to identify labor markets and to calculate and assign wage
indexes to hospitals. In 2003, OMB revised its metropolitan statistical area definitions and
announced new core-based statistical areas (CBSA). CMS calculates a wage index for each
CBSA and a statewide rural wage index for each State for areas that lie outside CBSAs. The
wage index for each CBSA and statewide rural area is based on the average hourly wage rate of
the hospitals in those areas divided by the national average hourly wage rate. All hospitals
within a CBSA or within a statewide rural area receive the same labor payment adjustment.

To calculate wage indexes, CMS uses hospital wage data (which include wages, salaries, and
related hours) collected 4 years earlier to allow time for CMS to collect complete cost report data
from all inpatient prospective payment system hospitals and for CMS’s fiscal intermediaries to
review these data. For example, CMS will base the wage indexes for FY 2009, which will begin
October 1, 2008, on wage data collected from hospitals’ Medicare cost reports for their FYs that
began during Federal FY 2005 (October 1, 2004, through September 30, 2005). A hospital’s
wage rate is the quotient of dividing total dollars (numerator) by total hours (denominator).
Arriving at the final numerator and denominator in this rate computation involves a series of
calculations. Inaccuracies in either the dollar amounts or hours reported can have varying effects
on the final rate computation.

Section 1886(d)(3)(E) of the Social Security Act (the Act) requires that CMS update wage
indexes annually in a manner that ensures that aggregate payments to hospitals are not affected
by changes in the indexes. Hospitals must accurately report wage data for CMS to determine the
equitable distribution of payments. Further, section 1886(d)(3)(A)(iv) of the Act requires CMS
to update labor and nonlabor average standardized amounts by an applicable percentage increase
specified in section 1886(b)(3)(B)(i). The percentage increase is based on the market basket
index, which measures inflationary increases in hospital costs. The inclusion of unallowable


1
 The inpatient prospective payment system wage index or a modified version also applies to other providers, such as
outpatient hospitals, long term care hospitals, inpatient rehabilitation facilities, inpatient psychiatric facilities, skilled
nursing facilities, home health agencies, and hospices.


                                                              1
costs in wage data could produce an inaccurate market basket index for updating prospective
payments to hospitals.

Kaiser Foundation Hospital–Vallejo

Kaiser Foundation Hospital–Vallejo (the Hospital) is a 287-bed hospital in Vallejo, California.
The Hospital is part of Kaiser Foundation Health Plan, Inc., and Subsidiaries and Kaiser
Foundation Hospitals and Subsidiaries. The Hospital is also one of four hospitals in a California
CBSA. The Hospital submitted to CMS its FY 2005 Medicare cost report covering the period
January 1 through December 31, 2005.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the Hospital complied with Medicare requirements for
reporting wage data in its FY 2005 Medicare cost report.

Scope

Our review covered the $144,494,015 in salaries and 2,904,137 in hours that the Hospital
reported to CMS on Worksheet S-3, part II, of its FY 2005 Medicare cost report, which resulted
in an average hourly wage rate of $49.75. We limited our review of the Hospital’s internal
controls to the procedures that the Hospital used to accumulate and report wage data for its cost
report.

We conducted our audit from June 2007 through February 2008 and performed fieldwork at
Kaiser Foundation Health Plan, Inc. and Hospitals’ office in Pasadena, California.

Methodology

To accomplish our objective, we:

 •   reviewed applicable Medicare laws, regulations, and guidance;

 •   obtained an understanding of the Hospital’s procedures for reporting wage data;

 •   verified that wage data reported in the Hospital’s FY 2005 cost report reconciled to the
     audited financial statements;

 •   reconciled the total reported wages in the Hospital’s FY 2005 Medicare cost report to its
     general ledger;

 •   reconciled the wage data from selected cost centers to detailed support, such as bank
     statements, payroll registers, or timecards;



                                                2
     •       selected for testing wage data in the FY 2005 Medicare cost report from cost centers that
             accounted for at least 2 percent of the total Hospital wages;

     •       tested a sample of transactions from these cost centers and reconciled wage data to payroll
             records; and

     •       determined the effect of the reporting errors by recalculating, as shown in Appendix A, the
             Hospital’s average hourly wage rate using the CMS methodology for calculating the wage
             index, which includes an hourly overhead factor, in accordance with instructions published
             in the Federal Register.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                                 FINDINGS AND RECOMMENDATIONS

The Hospital did not fully comply with Medicare requirements for reporting wage data in its
FY 2005 Medicare cost report. Specifically, the Hospital reported the following inaccurate wage
data, which affected the numerator and/or denominator of its wage rate calculation:

         •    overstated home office costs totaling $5,441,288 and 57,408 hours,
         •    overstated contract labor costs totaling $5,213,995 and 28,319 hours,
         •    overstated pension costs totaling $986,909, and
         •    overstated salary costs totaling $120,212 and 167,155 hours.

These errors occurred because the Hospital did not sufficiently review and reconcile its reported
wage data to supporting documentation to ensure that the data were accurate, supportable, and in
compliance with Medicare requirements. As a result, the Hospital overstated its wage data by
$11,762,404 (numerator) and 252,882 hours (denominator) for the FY 2005 Medicare cost report
period. Our correction of the Hospital’s errors increased the average hourly wage rate
approximately 1 percent from $49.75 to $50.17. If the Hospital does not revise the wage data in
its cost report, the FY 2009 wage index for the Hospital’s CBSA will be understated, which will
result in underpayments to all of the hospitals that use this wage index. 2

ERRORS IN REPORTED WAGE DATA

The errors in reported wage data are discussed in detail below, and the cumulative effect of the
findings is presented in Appendix A.




2
    The extent of underpayments cannot be determined until CMS finalizes its FY 2009 wage indexes.


                                                          3
Overstated Home Office Costs and Hours

The “Medicare Provider Reimbursement Manual” (the Manual), part I, section 2150.3A, states
that a home office must exclude unallowable costs before allocating costs to its chain
components. Section 2150.2E.1 of the Manual states that home-office planning costs incurred
for expanding, rebuilding, or relocating an existing chain component are allowable only when
those costs have been included in the historical costs of the completed facility. The Manual,
part I, section 2139, states that costs incurred for political and lobbying activities are
unallowable.

The Manual, part II, section 3605.2, requires hospitals to report the number of paid hours
corresponding to the reported salaries. Further, it states: “Paid hours include regular hours
(including paid lunch hours), overtime hours, paid holiday, vacation and sick leave hours, paid
time-off hours, and hours associated with severance pay. . . . [I]f the hours cannot be determined,
then the associated salaries must not be included . . . .”

The Manual, part I, section 2142.6, defines allowability of pension plan payments. Section
2142.6C specifies the treatment of excessive pension plan payments as follows: “Where the
payment made is more than the lesser of the tax deductible maximum or the total normal cost
plus ratable amortization of the unfunded actuarial accrued liability, the excess may be carried
forward and considered as payment against the liability to the fund of the future period.”

The Manual, part I, section 2153, states: “The home office cost statement constitutes the
documentary support required of the provider to be reimbursed for home office costs and equity
capital in the provider’s cost report. The financial records of the home office, in turn, are the
necessary support for the data in the home office cost statement.”

The Hospital incorrectly reported home office salaries and wage-related benefits totaling
$5,441,288 and 57,408 hours by not excluding certain home office costs and hours before
allocating costs to its chain components. Specifically, the Hospital included the following wage
data that were not in compliance with Federal requirements:

   •   unallowable home-office planning costs,
   •   unallowable political and lobbying costs,
   •   salaries and severance pay without the corresponding hours,
   •   pension plan payments in excess of the allowable pension costs, and
   •   unsupported salaries and/or hours.

As a result, the Hospital overstated its wage data by $5,441,288 and 57,408 hours, which
overstated its average hourly wage rate by $0.91.

Overstated Contract Labor Costs and Hours

The Manual, part II, section 3605.2, requires hospitals to report the amounts paid for services
furnished under contract, rather than by employees, for direct patient care and certain
management services. Section 3605.2 states that direct patient care services include nursing,


                                                 4
diagnostic, therapeutic, and rehabilitative services and do not include services paid under
Medicare Part B, such as physician clinical services and physician assistant services. Further,
section 3605.2 states that costs for contract management services are limited to personnel costs
for those individuals who are working at the hospital facility in the capacity of chief executive
officer, chief operating officer, chief financial officer, or nursing administrator.

The Manual, part II, section 3605.2, requires hospitals to report the number of paid hours
corresponding to the amounts reported as paid for services furnished under contract. However, if
the number of paid hours cannot be determined, section 3605.2 directs hospitals to omit the
associated salaries. This section also requires hospitals to ensure that the wage data reported in
their Medicare cost reports are accurate.

The Hospital incorrectly reported a total of $5,213,995 in contract labor costs and 28,319 hours.
Specifically, the Hospital included the following contract labor costs and hours that were not in
compliance with Federal requirements:

   •   costs not related to direct patient care or allowable management services,
   •   costs for Medicare Part B services,
   •   costs reported without the corresponding hours, and
   •   costs included because of a data entry error.

As a result, the Hospital overstated its wage data by $5,213,995 and 28,319 hours, which
overstated its average hourly wage rate by $1.32.

Overstated Pension Costs

The Manual, part I, section 2142.5, allows for reimbursement of certain pension plan costs
provided that the pension plan payment requirements in section 2142.6A are met. The Manual,
part I, section 2142.6A, states: “The provider must make payment of its current liability for
both normal costs and actuarial accrued liability costs to the fund established for the pension
plan . . . .” The Manual, part I, section 2142.4A, requires providers to “have available actuarial
data containing at a minimum an analysis of both the ERISA [Employee Retirement Income
Security Act] minimum and tax deductible maximum pension cost specifying the normal (current
service) cost and the unfunded actuarial accrued liability.”

The Manual, part I, section 2142.6, defines allowability of pension plan payments. Further,
section 2142.6C specifies the treatment of excessive pension plan payments as follows: “Where
the payment made is more than the lesser of the tax deductible maximum or the total normal cost
plus ratable amortization of the unfunded actuarial accrued liability, the excess may be carried
forward and considered as payment against the liability to the fund of the future period.”

Based on its actuarial data, the Hospital reported $1,303,658 of pension benefit costs in excess of
the total normal cost plus ratable amortization of the unfunded actuarial accrued liability. As a
result, after overhead was factored in, the Hospital overstated its wage data by $986,909, which
overstated its average hourly wage rate by $0.34.



                                                 5
Overstated Salary Costs and Hours

The Manual, part II, section 3605.2, states that hospitals should ensure that the wage data
reported in their Medicare cost reports are accurate. This section also requires hospitals to report
the salaries paid to hospital employees and the number of paid hours corresponding to the
reported salaries. Further, the Manual states: “[I]f the hours cannot be determined, then the
associated salaries must not be included . . . .”

The Hospital reported a total of $1,812,747 in salaries without the corresponding hours. Further,
although the Hospital correctly removed a total of $5,160,230 in salaries paid to nonhospital
employees, it did not remove 225,953 hours corresponding to those salaries. As a result, after
various required adjustments and overhead were factored in, the Hospital overstated its wage
data by $120,212 and 167,155 hours, which understated its average hourly wage rate by $2.99.

CAUSES OF WAGE DATA REPORTING ERRORS

These reporting errors occurred because the Hospital did not sufficiently review and reconcile
wage data to supporting documentation to ensure that all amounts included in its Medicare cost
report were accurate, supportable, and in compliance with Medicare requirements.

OVERSTATED WAGE DATA AND POTENTIAL UNDERPAYMENTS

As a result of the reporting errors, the Hospital overstated its Part A wage data by $11,762,404
(numerator) and 252,882 hours (denominator) for the FY 2005 Medicare cost report period. Our
correction of the Hospital’s errors increased the average hourly wage rate approximately
1 percent from $49.75 to $50.17. If the Hospital does not revise the wage data in its cost report,
the FY 2009 wage index for the Hospital’s CBSA will be understated, which will result in
underpayments to all of the hospitals that use this wage index.

RECOMMENDATIONS

We recommend that the Hospital:

   •   submit a revised FY 2005 Medicare cost report to the fiscal intermediary to correct the
       wage data overstatements totaling $11,762,404 and 252,882 hours and

   •   strengthen review and reconciliation procedures to ensure that the wage data reported in
       future Medicare cost reports are accurate, supportable, and in compliance with Medicare
       requirements.

KAISER FOUNDATION HOSPITAL–VALLEJO COMMENTS

In its written comments on our draft report, the Hospital provided information on actions taken to
implement our recommendations. The Hospital’s comments are included in their entirety as
Appendix B.




                                                 6
APPENDIXES
                                                                                                                                                                                                        APPENDIX A
                                                                                                                                                                                                          Page 1 of 2




                                                                             CUMULATIVE EFFECT OF FINDINGS
Components                                                        Reported Federal      Overstated Home          Overstated Contract
                                                                                                                                           Overstated Pension       Overstated Salary        Adjusted FY 2005 Wage
                                                                  Fiscal Year 2005      Office Costs and          Labor Costs and
                                                                                                                                                 Costs              Costs and Hours                   Data
Kaiser Foundation Hospital - Vallejo                                 Wage Data               Hours                     Hours
                Worksheet S - 3, Part II
Total Salaries
line 1/col. 3         Total Salaries                                   $99,029,449.00                                                                                      ($1,812,747.00)               $97,216,702.00
                                                                                                                                                                                                                  $0.00
                      Excluded Salaries                                                                                                                                                                           $0.00
line 4.01/col. 3      Teaching Physician                                        $0.00                                                                                                                             $0.00
line 5/col. 3         Physician: Part B                                         $0.00                                                                                                                             $0.00
line 5.01 col. 3      Nonphysician: Part B                                      $0.00                                                                                                                             $0.00
line 6/col. 3         Interns and Residents                              $211,583.00                                                                                           ($2,694.00)                 $208,889.00
line 6.01/col.3       Contract Services - Interns and Residents                 $0.00                                                                                                                             $0.00
line 7/col.3          Home Office Personnel                                     $0.00                                                                                                                             $0.00
line 8/col. 3         Skilled Nursing Facility (SNF)                            $0.00                                                                                                                             $0.00
line 8.01/col. 3      Excluded Area                                    $16,191,252.00                                                                                        ($50,681.00)                $16,140,571.00
subtotal (subtract)                                                    $16,402,835.00                  $0.00                     $0.00                    $0.00              ($53,375.00)                $16,349,460.00

                      Additional Salaries
line 9/col. 3         Contract Labor                                   $27,255,338.00                                    ($5,213,995.00)                                                                 $22,041,343.00
line 10/col. 3        Contract Labor - Physician Part A                                                                                                                                                           $0.00
line 10.01/col.3      Contract Labor - Teaching Physician                                                                                                                                                         $0.00
line 11/col. 3        Home Office                                      $21,639,996.00          ($5,441,288.00)                                                                                           $16,198,708.00
line 13/col. 3        Wage-Related Cost (Core)                         $26,717,684.00                                                             ($1,303,658.00)            ($81,319.00)                $25,332,707.00
line 14/col. 3        Wage-Related Cost (Other)                                 $0.00                                                                                                                             $0.00
line 18/col. 3        Wage-Related Cost - Physician Part A                      $0.00                                                                                                                             $0.00
subtotal (add)                                                         $75,613,018.00          ($5,441,288.00)           ($5,213,995.00)          ($1,303,658.00)             ($81,319.00)               $63,572,758.00
                      Adjusted Salaries                               $158,239,632.00          ($5,441,288.00)           ($5,213,995.00)          ($1,303,658.00)          ($1,840,691.00)              $144,440,000.00
Total Paid Hours
line 1/col. 4         Total Hours                                        2,829,296.00                                                                                        (225,953.00)                  2,603,343.00

                      Excluded Hours
line 4.01/col. 4      Teaching Physician                                        0.00                                                                                                                              0.00
line 5/col. 4         Physician: Part B                                         0.00                                                                                                                              0.00
line 5.01/col. 4      Nonphysician: Part B                                      0.00                                                                                                                              0.00
line 6/col. 4         Interns and Residents                                 9,917.00                                                                                                                          9,917.00
line 6.01/col. 4      Contract Services - Interns and Residents                 0.00                                                                                                                              0.00
line 7/col. 4         Home Office Personnel                                     0.00                                                                                                                              0.00
line 8/col. 4         SNF                                                       0.00                                                                                                                              0.00
line 8.01/col. 4      Excluded Area                                       433,938.00                                                                                                                        433,938.00
subtotal (subtract)                                                       443,855.00                     0.00                      0.00                     0.00                     0.00                   443,855.00

                      Additional Hours
line 9/col. 4         Contract Labor                                       445,380.00                                        (28,319.00)                                                                     417,061.00
line 10/col. 4        Contract Labor - Physician Part A                          0.00                                                                                                                              0.00
line 10.01/col.4      Contract Labor - Teaching Physician                        0.00                                                                                                                              0.00
line 11/col. 4        Home Office                                          373,047.00              (57,408.00)                                                                                               315,639.00
subtotal (add)                                                             818,427.00              (57,408.00)               (28,319.00)                    0.00                    0.00                     732,700.00
                      Adjusted Hours                                     3,203,868.00              (57,408.00)               (28,319.00)                    0.00             (225,953.00)                  2,892,188.00
                                                                                                                                                                                                  APPENDIX A
                                                                                                                                                                                                    Page 2 of 2
Components                                                Reported Federal        Overstated Home          Overstated Contract
                                                                                                                                     Overstated Pension       Overstated Salary        Adjusted FY 2005 Wage
                                                          Fiscal Year 2005        Office Costs and          Labor Costs and
                                                                                                                                           Costs              Costs and Hours                   Data
Kaiser Foundation Hospital - Vallejo                         Wage Data                 Hours                     Hours
               Worksheet S - 3, Part III
Overhead Allocation
line13/col. 3      Total Overhead Salaries                       $27,876,167.00                                                                                      ($1,656,820.00)               $26,219,347.00
line13/col. 4      Total Overhead Hours                            1,151,822.00                                                                                         (225,953.00)                   925,869.00
                   Total Hours                                     2,829,296.00                    0.00                      0.00                     0.00              (225,953.00)                 2,603,343.00
                   Less:
                   Teaching Physician Hours                                0.00                    0.00                      0.00                     0.00                    0.00                              0.00
                   Physician Part B Hours                                  0.00                    0.00                      0.00                     0.00                    0.00                              0.00
                   Nonphysician Part B Hours                               0.00                    0.00                      0.00                     0.00                    0.00                              0.00
                   Interns and Residents Hours                         9,917.00                    0.00                      0.00                     0.00                    0.00                          9,917.00
                   Total Overhead Hours                            1,151,822.00                    0.00                      0.00                     0.00             (225,953.00)                       925,869.00
                   Subtotal                                        1,161,739.00                    0.00                      0.00                     0.00             (225,953.00)                       935,786.00
                   Revised Hours                                   1,667,557.00                    0.00                      0.00                     0.00                    0.00                      1,667,557.00
                   Overhead Reduction for Excluded Area
                   Hours
                   SNF Hours                                              0.00                     0.00                      0.00                     0.00                     0.00                             0.00
                   Excluded Area Hours                              433,938.00                     0.00                      0.00                     0.00                     0.00                       433,938.00
                   Subtotal                                         433,938.00                     0.00                      0.00                     0.00                     0.00                       433,938.00
   Excluded Overhead Rate
[(SNF+Excluded Area Hours)/Revised Hours]                              0.260224                0.000000                  0.000000                 0.000000                 0.000000                        0.260224
   Excluded Overhead Salaries
(Overhead Salaries * Excluded Overhead Rate)                      $7,254,041.78                  $0.00                     $0.00                     $0.00            ($431,143.98)                    $6,822,897.80
  Excluded Overhead Hours
(Overhead Hours * Excluded Overhead Rate)                           299,731.48                     0.00                      0.00                     0.00               (58,798.35)                      240,933.13
  Overhead Rate
(Overhead Hours/(Revised Hours - SNF Hours - Excluded
Area Hours)                                                            0.933693                0.000000                  0.000000                 0.000000                 -0.183163                    0.750530
                   Wage-Related Cost (Core)                      $26,717,684.00                   $0.00                     $0.00           ($1,303,658.00)             ($81,319.00)               $25,332,707.00
                   Wage-Related Cost (Other)                              $0.00                   $0.00                     $0.00                    $0.00                     $0.00                        $0.00
                   Wage-Related Cost - Physician Part A                   $0.00                   $0.00                     $0.00                    $0.00                     $0.00                        $0.00
                   Total Wage-Related Cost                       $26,717,684.00                   $0.00                     $0.00           ($1,303,658.00)             ($81,319.00)               $25,332,707.00
     Overhead Wage-Related Cost                                  $24,946,126.98                   $0.00                     $0.00           ($1,217,216.96)          ($4,954,715.84)               $18,774,194.18
     Excluded Wage-Related Cost                                   $6,491,575.67                   $0.00                     $0.00             ($316,748.81)          ($1,289,334.93)                $4,885,491.93
                   Adjusted Salaries                            $158,239,632.00          ($5,441,288.00)           ($5,213,995.00)          ($1,303,658.00)          ($1,840,691.00)              $144,440,000.00
                   Less: Excluded Overhead Salaries               $7,254,041.78                   $0.00                     $0.00                    $0.00             ($431,143.98)                $6,822,897.80
                          Excluded Wage-Related Cost              $6,491,575.67                   $0.00                     $0.00             ($316,748.81)          ($1,289,334.93)                $4,885,491.93
Revised Wages                                                   $144,494,014.55          ($5,441,288.00)           ($5,213,995.00)            ($986,909.19)            ($120,212.09)              $132,731,610.27
   Multiply By: Inflation Factor                                       1.00000                 1.00000                   1.00000                  1.00000                  1.00000                          1.00000
Inflated Wages (Adjusted Wages Used in Report)                  $144,494,014.55          ($5,441,288.00)           ($5,213,995.00)            ($986,909.19)           ($120,212.09)               $132,731,610.27

Revised Hours (Adjusted Hours Used in Report)                      2,904,136.52              (57,408.00)               (28,319.00)                    0.00             (167,154.65)                     2,651,254.87
  [Adjusted Hours - Excluded Overhead Hours]
Average Hourly Wage                                                    $49.75                  ($0.91)                   ($1.32)                  ($0.34)                   $2.99                           $50.17

                                                          Total Wage Data Revisions: (Rounded)                                                                                                 Total
                                                          Inflated Wages                  ($5,441,288)              ($5,213,995)               ($986,909)               ($120,212)                     ($11,762,404)
                                                          Revised Hours                       (57,408)                  (28,319)                       0                 (167,155)                         (252,882)

                                                          Total Cost Report Revisions: (Rounded)
                                                          Salaries                        ($5,441,288)              ($5,213,995)              ($1,303,658)            ($1,812,747)                     ($13,771,688)
                                                          Hours                               (57,408)                  (28,319)                        0                (225,953)                         (311,680)
APPENDIX B
  Page 1 of 3
APPENDIX B
  Page 2 of 3
APPENDIX B
  Page 3 of 3
